NO. 20-72
JANET L. HIMSEL, MARTIN RICHARD HIMSEL,
ROBERT J. LANNON, AND SUSAN M. LANNON,
Petitioners,
v.
4/9 LIVESTOCK, LLC, CO-ALLIANCE. LLP, SAMUEL T. HIMSEL,
CORY M. HIMSEL, CLINTON S. HIMSEL, AND STATE OF INDIANA,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF
INDIANA FARMERS UNION, FAMILY FARM ACTION ALLIANCE, FOOD & WATER
WATCH, AMERICAN GRASSFED ASSOCIATION, FARM AID, HOOSIER ORGANIC
MARKETING EDUCATION, DAKOTA RURAL ACTION, IDAHO ORGANIZATION OF
RESOURCE COUNCILS, IOWA CITIZENS FOR COMMUNITY IMPROVEMENT, AND
MISSOURI RURAL CRISIS CENTER AS AMICI CURIAE IN SUPPORT OF PETITIONERS in
the above entitled case complies with word limitations. According to word-processing
system used to prepare the document, the brief contains 5,912 words, excluding the
parts exempted from the word count under Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 21, 2020.
/s/Jessica L. Culpepper
Jessica L. Culpepper
Counsel of Record for Amici

